No. 19-969

In the Supreme Court of the United States
JOHN M. MARSHALL, ET AL.,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

CERTIFICATE OF SERVICE

I, Nicole A. Saharsky, counsel for Petitioner and a member of the Bar of this
Court, certify that on this 24th day of February, 2020, I caused three copies of this
Brief for Professors Mary Anderson And W. Brian Dowis As Amici Curiae
In Support Of Petitioners to be served by overnight mail and electronic means on the
following:
Robert Carton Weaver
Foster Garvey P.C.
121 S.W. Morrison St., Suite 1100
Portland, OR 97201
(503) 553-3123
Robert.weaver@foster.com

Noel J. Francisco
Solicitor General
United States Dep’t of Justice
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

I further certify that all parties required to be served have been served.

Nicole A. Saharsky

